<html>
<title> - MODERNIZING THE ENDANGERED SPECIES ACT: LEGISLATIVE HEARING ON S. 4589, THE ENDANGERED SPECIES ACT AMENDMENTS OF 2020</title>
<body><pre>[Senate Hearing 116-414]
[From the U.S. Government Publishing Office]



                            
                                                         S.Hrg. 116-414

MODERNIZING THE ENDANGERED SPECIES ACT: LEGISLATIVE HEARING ON S. 4589, 
             THE ENDANGERED SPECIES ACT AMENDMENTS OF 2020

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           SEPTEMBER 23, 2020

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        

MODERNIZING THE ENDANGERED SPECIES ACT: LEGISLATIVE HEARING ON S. 4589,

             THE ENDANGERED SPECIES ACT AMENDMENTS OF 2020
             
             




                                                        S. Hrg. 116-414
 
MODERNIZING THE ENDANGERED SPECIES ACT: LEGISLATIVE HEARING ON S. 4589, 
             THE ENDANGERED SPECIES ACT AMENDMENTS OF 2020

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
43-458 PDF            WASHINGTON : 2021 
         
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 23, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Gordon, Hon. Mark, Governor, State of Wyoming....................     6
    Prepared statement...........................................    11
    Response to an additional question from:
        Senator Inhofe...........................................    18
        Senator Carper...........................................    19
Priddy, Aliese, Owner and Operator, JB Ranch.....................    26
    Prepared statement...........................................    29
    Response to an additional question from Senator Inhofe.......    33
Clark, Jamie Rappaport, President and CEO, Defenders of Wildlife.    34
    Prepared statement...........................................    36
    Responses to additional questions from:
        Senator Carper...........................................    45
        Senator Markey...........................................    47

                          ADDITIONAL MATERIAL

Letter to:
    Senators Barrasso and Carper from the Southern Maryland 
      Audubon Society and the Audubon Naturalist Society, 
      September 23, 2020.........................................    54
    Senators Barrasso and Carper from the Alaska Wilderness 
      League Action et al., September 23, 2020...................    56
    Senators Barrasso and Carper from the National Wildlife 
      Federation, September 23, 2020.............................    72
    Senators Barrasso and Carper from the National Wildlife 
      Federation, September 23, 2020.............................    75
    Senators Barrasso and Carper from the National Wildlife 
      Federation, June 14, 2019..................................    77
    Senators Barrasso and Carper from the Environmental Defense 
      Fund, September 21, 2020...................................    80
    Senators Barrasso and Carper from the National Audubon 
      Society, September 22, 2020................................    82
    Senators from the National Parks Conservation Association, 
      September 21, 2020.........................................    84
    Senators from the National Parks Conservation Association, 
      September 8, 2020..........................................    86
    Senators Barrasso and Carper from the Delaware Ornithological 
      Society, September 23, 2020................................    88
    Senator Carper from Delaware Wild Lands, October 5, 2020.....    91
    Senator Carper from the Delaware Nature Society, October 7, 
      2020.......................................................    93
    Senator Carper from the Christian Council of Delmarva, 
      September 15, 2020.........................................    94
    Senators Barrasso and Carper from the State of Delaware 
      Department of Natural Resources and Environmental Control, 
      received October 2, 2020...................................    96
    Senator Carper from Delaware State Senator Stephanie Hansen, 
      September 22, 2020.........................................    98
    Senator Carper from the American Birding Association, October 
      6, 2020....................................................   100
    Senators Barrasso and Carper from the Center for Biological 
      Diversity, September 9, 2020...............................   101
    Senators Barrasso and Carper from the International Fund for 
      Animal Welfare, September 23, 2020.........................   141
    Senator Barrasso from the Montana Wildlife Federation, 
      September 4, 2020..........................................   143
    Montana Grizzly Bear Advisory Council from the Natural 
      Resources Defense Council, April 8, 2020...................   145
    Montana Grizzly Bear Advisory Council from the Natural 
      Resources Defense Council, June 26, 2020...................   153
Written testimony of Dr. Jane Goodall, DBE, Founder, the Jane 
  Goodall Institute and UN Messenger of Peace, September 23, 2020   180
Bear spray saves lives, the Humane Society of the United States..   182
Statement for the record, New England Aquarium, September 23, 
  2020...........................................................   203
Testimony to the Senate Committee on Environment and Public Works 
  on the Grizzly Bear State Management Act from the Humane 
  Society Legislative Fund and the Humane Society of the United 
  States, September 9, 2020......................................   207
Testimony to the Senate Committee on Environment and Public Works 
  on the Grizzly Bear State Management Act from Chuck Neal, 
  September 21, 2020.............................................   210
Testimony to the Senate Committee on Environment and Public Works 
  on the Grizzly Bear State Management Act from Franz J. 
  Camenzind, Ph.D., September 21, 2020...........................   211
Testimony on the Grizzly Bear State Management Act from the Rocky 
  Mountain Tribal Leaders Council, September 9, 2020.............   216
Letter to Senator Barrasso from:
    The Wyoming Game and Fish Department, September 14, 2020.....   219
    The Wyoming Stock Growers Association, September 16, 2020....   220
    The Wyoming Farm Bureau Federation, September 18, 2020.......   222
    The Wyoming Association of Conservation Districts, September 
      18, 2020...................................................   224
    The Arizona Game and Fish Commission, October 7, 2020........   226
    The American Sheep Industry Association et al., September 23, 
      2020.......................................................   233
    The Intermountain Forest Association, September 20, 2020.....   236
    The United Water Conservation District, September 21, 2020...   237
    The American Farm Bureau Federation, September 22, 2020......   239
    The American Forest Resource Council, September 24, 2020.....   241
    The Association of Fish and Wildlife Agencies, September 21, 
      2020.......................................................   243
    The Associated General Contractors of America, September 22, 
      2020.......................................................   245
    The American Loggers Council, September 18, 2020.............   246
    The American Road and Transportation Builders Association, 
      September 22, 2020.........................................   248
    The American Exploration and Production Council, September 
      23, 2020...................................................   249
    The Black Hills Regional Multiple Use Coalition, September 
      20, 2020...................................................   250
    The Campbell County Board of Commissioners, September 17, 
      2020.......................................................   251
    The Colorado Farm Bureau, September 17, 2020.................   252
    The Florida Farm Bureau Federation, October 1, 2020..........   253
    Court Boice, Curry County Oregon Commissioner, September 19, 
      2020.......................................................   255
    The Deschutes Basin Board of Control, September 21, 2020.....   256
    The Elephant Butte Irrigation District of New Mexico, 
      September 16, 2020.........................................   258
    The Family Farm Alliance, September 22, 2020.................   260
    The Florida Forestry Association, September 24, 2020.........   262
    The Hardwood Federation, September 16, 2020..................   263
    Healthy Forests, Healthy Communities, September 15, 2020.....   264
    The Idaho Water Users Association, September 15, 2020........   265
    The Independent Petroleum Association of America, September 
      21, 2020...................................................   267
    Iron County, Utah, September 15, 2020........................   268
    The Mohave County Board of Supervisors, September 17, 2020...   270
    The Klamath Water Users Association, September 22, 2020......   272
    The La Paz County Board of Supervisors, September 21, 2020...   274
    The Land Conservation Assistance Network, September 2020.....   277
    The State of Mississippi Department of Agriculture and 
      Commerce, September 17, 2020...............................   279
    The Montana Wool Growers Association, September 16, 2020.....   281
    The Montana Wood Products Association, September 14, 2020....   286
    The National Association of Conservation Districts, September 
      21, 2020...................................................   288
    The National Association of Counties, September 22, 2020.....   290
    The National Association of Home Builders, September 22, 2020   292
    The National Association of Realtors, September 8, 2020......   294
    The National Association of State Departments of Agriculture, 
      September 21, 2020.........................................   296
    The National Association of State Foresters, September 22, 
      2020.......................................................   297
    The National Cotton Council of America, September 22, 2020...   299
    The National Grazing Lands Coalition, August 22, 2020........   301
    The National Aquaculture Association, September 22, 2020.....   302
    The State of North Dakota Department of Agriculture, 
      September 22, 2020.........................................   304
    The North Dakota Game and Fish Department, September 22, 2020   305
    Neiman Enterprises, Inc., September 23, 2020.................   306
    The National Endangered Species Act Reform Coalition, 
      September 16, 2020.........................................   307
    The National Mining Association, September 23, 2020..........   309
    The New Mexico Association of Conservation Districts, 
      September 21, 2020.........................................   311
    The National Rural Electric Cooperative Association, 
      September 11, 2020.........................................   312
    The National Stone, Sand, and Gravel Association, September 
      23, 2020...................................................   314
    The National Wild Turkey Federation, September 22, 2020......   315
    The Colorado Snowmobile Association et al., September 14, 
      2020.......................................................   317
    The Off-Road Business Association et al., September 14, 2020.   322
    The Oklahoma Department of Wildlife Conservation, September 
      18, 2020...................................................   326
    Partners for Conservation, September 17, 2020................   328
    The Rocky Mountain Elk Foundation, September 16, 2020........   329
    Safari Club International, September 22, 2020................   330
    The South Carolina Department of Natural Resources, September 
      22, 2020...................................................   333
    The J.R. Simplot Company, September 17, 2020.................   334
    The Society for Range Management, October 7, 2020............   336
    The Western Association of Agricultural Experiment Station 
      Directors, September 16, 2020..............................   338
    The Western Energy Alliance, September 21, 2020..............   340
    The Westlands Water District, October 7, 2020................   341
    The Wisconsin Farm Bureau Federation, September 21, 2020.....   343
    The Western Landowners Alliance, September 22, 2020..........   344
    The Wyoming Water Development Office, September 21, 2020.....   349
    The Wyoming Department of Transportation, September 28, 2020.   351


MODERNIZING THE ENDANGERED SPECIES ACT: LEGISLATIVE HEARING ON S. 4589, 
             THE ENDANGERED SPECIES ACT AMENDMENTS OF 2020

                              ----------                              


                     WEDNESDAY, SEPTEMBER 23, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:06 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Sullivan, Boozman, Ernst, Cardin, Gillibrand, 
Booker, Duckworth, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today, we will consider Senate Bill 4589, the Endangered 
Species Act Amendments of 2020. I introduced this legislation 
to modernize and to strengthen the Endangered Species Act. It 
is the culmination of a collaboration with stakeholders from 
across the political spectrum, and it began 4 years ago.
    During my time as Chairman, we have held five different 
hearings on how the Endangered Species Act needs to be reformed 
so it works better for wildlife and for people. It is clear: 
Legislation is needed to accomplish this goal.
    It was my intention to introduce a bill with the support of 
environmental and wildlife conservation organizations and a 
bipartisan group of Senators. Our stakeholder feedback process 
made clear that at least one provision in my bill is a non-
starter for those groups and for the Committee's minority. It 
also made clear that the same provision is the top priority for 
my home State of Wyoming.
    The Endangered Species Act requires the Secretary of the 
Interior to monitor a species for at least 5 years after the 
species is fully recovered and delisted. My legislation would 
delay the ability of a Federal court to overturn a delisting 
rule during this 5 year monitoring program. It doesn't 
eliminate anyone's rights to challenge a delisting rule in the 
Federal court; it only delays such a lawsuit so States have an 
opportunity to prove that they can successfully manage the 
recovered species.
    Under my legislation, a recovered species is still 
protected during that 5 year post-delisting monitoring period. 
They are still protected by State regulations and the State 
management plan, and by the Secretary's authority to relist the 
species if its condition deteriorates. These changes to the 
Endangered Species Act are critical for Wyoming, for Montana, 
for Idaho, and for other States.
    This point was highlighted at a hearing this Committee held 
earlier this month. The grizzly bear in the Greater Yellowstone 
ecosystem is fully recovered. That is not just me saying it; 
President Bush, President Obama, and President Trump all agree, 
and each of those administrations have tried to delist the 
species. Yet activist Federal judges have repeatedly intervened 
to overturn these delisting rules.
    The decades long commitment of time and resources by States 
and stakeholders simply cannot continue if the good work to 
recover the grizzly bear is ignored by activist courts. I 
understand that this provision ensures some stakeholders won't 
support my bill; however, it is an issue that needs to be 
addressed if we are to improve the Endangered Species Act.
    Many other concepts and provisions in the bill have 
received positive feedback and support from environmental and 
wildlife conservation groups. They include the parts of the 
bill that reauthorize the Endangered Species Act for the first 
time in almost 30 years, substantially increasing the funding 
authorization, and focusing money on recovery of species, 
elevating the role of States in implementing the act, ensuring 
non-governmental stakeholders have a clearer voice in recovery 
and in implementing planning, providing regulatory certainty to 
incentivize investment in conservation and recovery activities, 
and prioritizing resources for species that are most in need.
    Stakeholders have also sought a significant additional 
funding stream for wildlife conservation. I continue to be open 
to exploring this possibility. The funding levels must be 
reasonable, justified, and paid for. They must also be part of 
a bill that modernizes the Endangered Species Act.
    Since the Endangered Species Act was signed into law, fewer 
than 3 percent of listed species have been recovered and 
delisted. This is a failure, not a success. We must do more 
than just list species and leave them on life support. We need 
to see them recovered and delisted. The Endangered Species Act 
Amendments of 2020 will go a long way to achieving this goal.
    I want to thank all of the stakeholders who participated in 
bringing the legislation to this point, including those 
stakeholders who currently cannot support the bill. I hope to 
continue to work to find a viable pathway for this legislation 
as we move into the 117th Congress.
    I would now like to turn to Ranking Member Carper for his 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Good to see you.
    Good to see all of our colleagues today, and I am happy to 
welcome back Governor Gordon. We have almost a quorum here 
today, with you and Governor Rounds, and others. We are happy 
to see you, and we welcome our other witnesses, Jamie Rappaport 
Clark, and Aliese Priddy.
    As a recovering Governor and former State treasurer myself, 
I appreciate the critical role that States play, as well as the 
challenges that they may face in implementing many of our 
Federal laws, and that includes the Endangered Species Act. We 
gather here today to consider legislation that would make 
significant changes to the Endangered Species Act, one of our 
Nation's most popular environmental statutes at a time when our 
world is facing dramatic decline in biodiversity.
    Last week, in fact, the United Nations released a report 
warning us that humanity is at a crossroads. Climate change 
fueled by harmful emissions, rapid industrial growth, and 
deforestation are destroying or seriously disrupting ecosystems 
throughout our planet.
    As rising sea temperatures acidify the ocean, bleaching 
coral reefs in the process, plastic pollution is overwhelming 
marine life in large parts of our ocean.
    As severe heat and longer droughts create drier conditions, 
animals and birds cannot escape the catastrophic wildfires that 
engulf many of our forests.
    The steep decline in biodiversity is not just dangerous in 
theory; biodiversity is the variety of life on Earth. Its 
imbalance endangers humans, too, fueling the spread of invasive 
species and zoonotic disease. Addressing this biodiversity 
crisis is all the more important as our country mourns the loss 
of more than 200,000 Americans to COVID-19, a zoonotic disease.
    Fortunately, the Endangered Species Act is one of our 
Nation's best tools to support, improve, and protect 
biodiversity. How, you might ask? Well, let's consider my own 
home State of Delaware.
    The First State enjoys an effective partnership with the 
U.S. Fish and Wildlife Service within the framework of the 
existing Endangered Species Act. Through this partnership, the 
act has helped recover species in our State, just in recent 
years, such as the Delmarva fox squirrel and the iconic bald 
eagle.
    Delaware's Department of Natural Resources and 
Environmental Control is currently collaborating with the U.S. 
Fish and Wildlife Service to combat the spread of something 
called white nose syndrome, a disease that has wiped out entire 
populations of endangered bats in our State, and as we know 
those bats serve a valued purpose.
    Our Fish and Wildlife Service Northeast Region is also 
working with landowners, with industry partners, with nonprofit 
organizations, to prevent new Endangered Species Act listings 
and to restore the Delaware River basin.
    Meanwhile, people travel from around the world to visit us 
in Delaware to see threatened and endangered species, most 
notably, the red knots and piping plovers, two types of 
migratory birds that find safe haven on our shores to fuel on 
horseshoe crabs or nest on our beaches.
    They fly all the way from the South Pole almost to the 
North Pole, and they stop for lunch in Delaware. A lot of 
people from around the world come and see them. If our visitors 
today are lucky enough, some of them might even spot a North 
Atlantic right whale or a sea turtle off of our shores.
    I have heard from many of my constituents who are also 
passionate about protecting species in their States, other 
States. Delawareans certainly support improving species 
conservation outcomes, but they overwhelmingly believe that 
Congress can do that by helping to address funding shortfalls 
at both the State and the Federal level.
    In fact, I would say that most, if not all the witnesses 
who have testified at our many wildlife hearings that our 
Committee has held, during the past two sessions of Congress, 
they seem to agree that States and Federal agencies lack 
sufficient wildlife conservation resources.
    Let me just say that this is not entirely a Federal burden. 
It is not entirely a State or local burden; this is a shared 
responsibility. We are one of those who need to share our fair 
share.
    As some of you will recall, one of Wyoming's former 
Governors, Dave Freudenthal, cochaired of the Blue Ribbon 
Committee, I believe it was in 2014, on how best to sustain 
America's diverse fish and wildlife resources. That panel, as 
some of you will recall, that panel which included State 
leaders, industry, and conservation organizations, determined 4 
years ago, in 2016, that a new funding model for State wildlife 
management is necessary. Yet the legislation before us today 
does not prioritize funding.
    While I do support reauthorizing the Endangered Species 
Act, doing so does not constitute a complete or meaningful 
funding strategy. Reauthorization also does not guarantee 
funding increases for Federal agencies, nor does it provide 
additional funding to States. Instead, the legislation before 
us today proposes changes to the Endangered Species Act that 
raise heartfelt concerns for those of us in Delaware and 
beyond.
    For one, it attempts to shift responsibilities for recovery 
and other species management decision to States, without 
providing additional funding for States to fulfill those 
expanded roles. This is particularly troubling, even, I think, 
counter-intuitive, because species typically only require 
Endangered Species Act protection when State management has 
failed.
    At the same time, the legislation before us also expands 
States' roles by creating more steps to add the Endangered 
Species Act implementation process, which could unintentionally 
create more, not less, bureaucratic red tape.
    Most concerning of all, however, the legislation includes a 
sweeping judicial review prohibition that limits the public's 
opportunity to challenge delisting decisions that may not be 
supported by the best available science or otherwise may not be 
fully compliant with the law.
    I believe that most of our colleagues know that I tend to 
be someone who tries to understand where my colleagues are 
coming from, especially when it comes to issues of importance 
to their States. I think our Chairman is like that as well, and 
I think most of us on this Committee are, too.
    But over the course of the last two Congresses, I have 
learned how and why Delaware's experience and perspective is 
vastly different from some other States', including Wyoming, on 
this particular issue. But having said that, I still struggle 
to fully understand how this legislation would support species 
recovery or serve the American public, in Delaware or in most 
other States. While I believe there are areas of bipartisan 
agreement on how to better protect and conserve species, sadly, 
I am afraid they are not clearly reflected in the legislation 
that we are considering today.
    With that said though, I still look forward to our 
discussion today. I am hopeful that the result will be a return 
to bipartisan policy, making one that considers the views of 
all our States and stakeholders, based upon shared principles 
and priorities. This Committee is capable of doing that; in 
fact, under the leadership of our Chairman and the support of 
Democrat and Republican members of our Committee, we do it 
regularly, and I am proud to say, as recently as this month.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Carper.
    We are delighted to have two panels today; each member of 
the Committee will have an opportunity to question one or both 
members, either a 5 minute round of questions with either 
panel, or 3 minutes with both.
    On the first panel, we are going to hear from Hon. Mark 
Gordon, who is Governor of Wyoming. On the second panel, we 
will hear from Leisa Priddy, who is the owner and operator of 
the JB Ranch, and Jamie Rappaport Clark, who is President and 
Chief Executive Officer of Defenders of Wildlife, and she will 
be joining us remotely from Leesburg, Virginia, today.
    I want to remind the witnesses that your full written 
testimony will, of course, be made part of the official hearing 
record today, so I would ask that you please keep your 
statements to 5 minutes so we will have plenty of time for 
questions. I know we do have a roll call vote on the floor of 
the Senate a little later this morning.
    First, I would like to introduce Wyoming Governor Mark 
Gordon, who has been serving as Governor since January 2019. 
Governor Gordon grew up on a ranch outside of Kaycee, Wyoming. 
He worked there after graduating from college. He then started 
his own ranch, as well as several successful outdoor recreation 
and tourism businesses in both Buffalo and Sheridan, Wyoming.
    Today, Governor Gordon and his wife Jennie own and operate 
the Merlin Ranch east of Buffalo, which has been recognized by 
the Society for Range Management with the Excellence in Ranch 
Stewardship award.
    Prior to his election as Governor, he served as Wyoming's 
State treasurer from 2012 to 2019. Governor Gordon's efforts to 
improve the State's financial portfolio resulted in Wyoming 
being ranked No. 1 in the country for transparency.
    Governor Gordon's service to Wyoming does not stop there; 
he has served in a variety of other positions, including as a 
member of the boards of the Wyoming Wildlife and Natural 
Resource Trust and Nature Conservancy in Wyoming, the Wyoming 
Environmental Quality Council, and the Powder River 
Conservation District in Johnson County, Wyoming.
    I hope that Governor Gordon will tell us about some of his 
experiences in Wyoming balancing the interests of citizens 
while effectively conserving and recovering wildlife.
    Governor Gordon, it is a great honor to welcome you again 
as a witness before the Environment and Public Works Committee. 
I want to thank you for traveling from Wyoming to Washington 
today to be part of this hearing.
    Governor Gordon, please proceed.

                STATEMENT OF HON. MARK GORDON, 
                   GOVERNOR, STATE OF WYOMING

    Mr. Gordon. Thank you, Mr. Chairman, Ranking Member Carper, 
and members of the Committee. When I last had a chance to be 
before this Committee, we were a lot closer, but I thank you 
very much for this opportunity to testify on Senate 4589, 
Amendments to the Endangered Species Act.
    I am the 33rd Governor of Wyoming and the third in 
succession to support such a bill. Governor Freudenthal, that 
Ranking Member Carper mentioned, as a Democrat and a friend, he 
was the first. Governor Mead, a Republican, also a friend and 
my immediate predecessor, both suggested improvements like 
those contained in this bill.
    Unlike them, I am not an attorney, though we all share a 
love of our State and its remarkable wildlife, flora, and 
fauna. I was remembering, as I came here yesterday, that a year 
ago, I was with game and fish biologists as they were logging 
and collaring a male grizzly bear that had gotten into some 
trouble in Sunlight Basin. For some of you, Sunlight Basin is 
familiar. It is a beautiful valley just east of Yellowstone 
Park. The Clarks Fork runs through it, the same river where the 
Nez Pierce, led by Chief Joseph, made good their escape from 
pursuing armies.
    This particular bear had gotten into trouble for killing a 
horse in someone's pasture, and therefore, it needed to be 
relocated. I remember that experience as being especially 
meaningful, because back in the late 1970s and early 1980s, I 
had worked as a citizen environmental leader to help recover 
the bear after Yellowstone Park's dumps had closed as a tourist 
attraction.
    At the time, there were fewer than 150 bears in the area. 
Not many bears, and for a couple of generations, their lives 
were transformed immeasurably.
    But they have subsequently learned new behaviors. I am a 
rancher, one of nine who signed up in 2014 for the first 
Candidate Conservation Agreements with assurances inside a tent 
with Governor Mead and former Secretary of Interior, Sally 
Jewell. It took place on a windy hill outside Pinedale, 
Wyoming, and the ceremony represented the culmination of many 
efforts between Wyoming Governors, landowners, industry, and 
the Federal Government to find a strategy that would protect 
the sage-grouse and enhance core sage-grouse habitat, because 
that is essential to protecting the bird from extinction.
    In turn, as we have learned more about this fascinating 
bird, I have issued my own executive order recently to improve 
on this approach, which began two administrations ago, 
involving private landowners, government agencies, non-
governmental entities, industry, citizens, all with the common 
aim of protecting the largest concentration of remaining grouse 
habitat in the country.
    It is working. Northeastern Wyoming sage-grouse populations 
have improved of late, something that I can attest to from 
seeing the birds in my own Hall Pasture over the course of the 
past year.
    I digress to point out my personal experience with the 
Endangered Species Act from many sides of its implementation, 
and while I must acknowledge that there are many aspects of the 
act which can be problematic to private property at times, 
misinterpret science, and at times be used improperly, it is 
nonetheless, a well intentioned law with a laudable aim, an aim 
which it has sometimes failed to accomplish.
    Members of the Committee, I come to you today because I 
believe the Endangered Species Act is broken, and there is no 
scientific reason it shouldn't be fixed. This bill amends the 
Endangered Species Act in necessary ways that are intended to 
bring more transparency, better cooperation, and incentive, and 
that most key element of empirical science, the ability to test 
a hypothesis, correct for undesirable outcomes, and chart a 
clear course to species recovery.
    Wyoming provides a multitude of successful examples from 
species recovery to preventing species from being listed in the 
first place. Unfortunately, Wyoming also has a long history of 
being hamstrung with paying for species management, yet being 
obliged to defer to Federal Government on decisions about that 
management. This is particularly vexing when species have fully 
recovered, yet remain listed because of legal horseplay and 
judicial jousting.
    Rather than focusing on actual results, courts are asked to 
speculate on what ifs that lead to a vicious cycle. On the side 
of those charged with finding solutions, they face unending 
expense and never ending challenges, while well meaning 
gadflies take advantage of a golden goose that lavishes court 
costs and legal fees and provides a fund raising cash cow. 
Neither the species nor affected parties find much relief in 
that recipe.
    This is not how the act was supposed to work. Wyoming is 
home to several lightning rod species, species like the 
carnivores that command national and international attention. 
The gray wolf and the grizzly bear have a marquee value that is 
mesmerizing. Perversely, some organizations who set forth to do 
good work found the fundraising appeal of these stars 
irresistible.
    While dire threat once underscored urgency, now the work to 
resolve these issues falls to more routine issues of rising in 
areas where large carnivores come into conflict with humans, 
domestic livestock, and big game. That process can seem more 
mundane, taking up the cudgel that the Endangered Species Act 
has become to impose the will of the Federal agency often to 
the detriment of affected parties seems to be more compelling.
    Let me mention a few examples of why the ESA needs fixing. 
The gray wolf was reintroduced in Wyoming, despite objections 
throughout the State. After five lawsuits and 15 years, the 
wolf was finally delisted.
    Scientific research and rigorous study proved to us that 
the wolf has reached the recovery thresholds that had been set 
for it for 10 years before that finally happened. Today, under 
our management, the population is thriving and expanding, well 
above federally required population objectives.
    Another successful recovery, by all accounts, is that of 
the Greater Yellowstone grizzly bear. It ranks as one of the 
most significant conservation success stories in North America, 
and I will tell you why. When a retired judge wakes up to find 
grizzlies on his back porch in downtown Cody, 52 miles from 
Yellowstone Park, or even further on, 47 miles away in Cowley, 
Wyoming, a farmer's corn maze needs to be shut down last year 
because grizzlies are in it, it is pretty evident bears are 
expanding and thriving too, well beyond government objectives.
    But this example of recovery is also an example of the 
act's reluctance to delist. We know more about the grizzly bear 
than any other wildlife species on the face of the Earth 
because we have studied it extensively since 1975. In all that 
time, we have seen methodologies and technologies improve. Our 
ability to estimate populations, migration, migration dynamics, 
behavior, and so on has evolved even as challenges facing the 
bear have also emerged.
    Wyoming is proud to have paid for and taken an active role 
in grizzly bear recovery and management for over four decades. 
Wyoming hunters and anglers financed the $50 million investment 
in grizzly bear recovery.
    When I started working on environmental issues back in 
1979, the population was estimated to be around 136 bears. They 
were in peril, no question about it.
    Now, the most conservative estimates run between 700 bears 
on the low side and as many as 1,200. The population is 
recovered to a point where it is the Wyoming people who have 
changed the way they work, live, make their livings, and 
recreate in bear country. More human-bear interaction means 
there are more bears doing more things that involve people. 
These incidents, some tragic, provide further proof that the 
bear has recovered, and management must evolve beyond its 
initial objectives.
    Despite the species being fully recovered for 20 years by 
every milestone that has been set for it for over those 40 
years, the bear remains listed, not because there is some novel 
or unaccounted for threat, not because there is some scientific 
concern over the population's viability; it remains listed 
because twice, Federal courts have rejected meticulously 
crafted U.S. Fish and Wildlife rules. In both cases, the court 
delved into complex and sometimes unsettled scientific findings 
as well as policy decisions of the Fish and Wildlife Service, 
looking for what ifs to scuttle the delisting.
    The courts seemed to ignore the findings and conclusions of 
grizzly bear experts in favor of ruling in a way that simply 
reaffirms a status quo. Perhaps it should come as no surprise 
or coincidence that five of the six lawsuits challenging the 
most recent 2018 grizzly bear delisting rule were filed in the 
same District Court, a court where previous eco-activist backed 
suits had found success. That is what we apparently do these 
days: Shop for judges favorable to one's point of view, 
regardless of law or evidence.
    Wyoming spends around $2 million annually to manage grizzly 
bears. That is the State's money, not Federal reimbursement. 
Grizzlies are federally protected species, yet the State of 
Wyoming bears much of that cost. An obvious question is, why 
are we unable to manage the bears when we should be shouldering 
so much of the cost?
    For these reasons and many others, I support the bill 
before you today. These amendments will align the act with its 
original intent to protect imperiled species, recover them, and 
remove them from the threatened or endangered species list.
    My predecessor, Governor Mead, opined before this Committee 
a few years ago about better ways to serve listed species and 
get them to what should be the goal of the ESA: Delisting. His 
suggestions were supported and crafted by the bipartisan 
Western Governors Association. They are sound.
    To my view, the largest barrier to delisting and returning 
the management of fully recovered species to the States and 
Tribes is litigation. Not litigation based on whether a species 
is recovered, but litigation aimed at finding technicalities in 
how the United States Fish and Wildlife Service promulgated the 
rules in the first place.
    Thus, I believe, this bill's proposed delay of judicial 
review during post-delisting monitoring is essential to its 
success. This provision will not harm species conservation. 
Rather, it will provide States and Tribes a reasonable period 
of time to show whether their management plans work. This 
approach properly comports with the scientific method.
    In any case, this bill still provides substantial 
safeguards, allowing for greater Federal involvement should 
that be deemed necessary, including emergency relisting. There 
is a safety valve. Giving States an incentive to implement 
State management plans will work. Keeping the big stick usually 
used to hit States over the head via litigation at a reasonable 
distance will incentivize State led conservation efforts.
    Wyoming has invested in conservation for listed species, 
given the face of multiple legal challenges. We have shown our 
commitment and our ability to find success with the Wyoming 
toad, the black-footed ferret. We are proud of that heritage, 
and yet public support of this type of investment could wane 
with the continued frustration that has come at the hands of 
pickers of nits.
    Critics of amending the act may say that States don't want 
to conserve at risk species, or that States lack capacity and 
expertise. Nothing could be further from the truth. The 
majority of wildlife in our Nation is managed and managed well 
by State and Tribal governments. The Public Trust Doctrine, 
outlined in the North American Model of Wildlife Conservation, 
is the bedrock for wildlife conservation in our country.
    It is also worth recognizing the substantial contributions 
made by private landowners, ranchers, and farmers across our 
Nation to wildlife conservation. To have those efforts 
overturned by litigation early in process is a great deterrent 
to cooperation.
    Further considerations, including takings, are not 
insignificant, and they also deserve a fair hearing. This bill 
provides a thoughtful way to address these complex issues.
    The current bill significantly improves on this bedrock act 
by encouraging State and Tribal involvement throughout the ESA 
process. It provides requirements for the Secretary to notify 
Governors when an ESA petition is filed. It provides allowances 
for State agencies to lead recovery teams and to take 
significant roles in recovery planning and implementation. It 
provides Governors and Tribal leaders the opportunity to weigh 
in on a listing decision before it is too late.
    These are critical steps, recognizing the value of local 
wildlife managers and what they bring to conservation and 
recovery of imperiled species. Most importantly, it provides an 
early entry for State and Tribal governments, as well as 
citizens and those affected, to help define what recovery looks 
like.
    Almost 30 percent of the species listed under the ESA have 
no recovery plan. A problem. How can a State, Federal, or 
Tribal Government meet the intent of the act and help recover 
imperiled species if they don't know how a recovery will be 
defined?
    Senator Barrasso. Governor, I am so grateful for your 
passion, I know we have a number of Senators that want to get 
to ask specific questions, so if you could wrap up so we could 
get to those?
    Mr. Gordon. Yes. Thank you, Mr. Chairman, forgive me for my 
excessive time. I very much appreciate this.
    I do want to make one last note, which is that I think the 
funding that this bill brings is extraordinary, and will be 
very helpful to State efforts. As I mentioned in my testimony, 
the big challenge here is that the State bears the burdens of 
the cost.
    [The prepared statement of Mr. Gordon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
      
    Senator Barrasso. Well, we are so grateful for your 
thorough, your excellent presentation.
    We do have a couple of questions. We have a number of 
Senators here who would like to ask.
    I want to start by talking about the greater State 
involvement that comes in the bill that you were just referring 
to. It gives States the opportunities to lead the recovery and 
the implementation teams, and I know you support those 
provisions.
    Can you explain how a listed species could actually benefit 
from increased State involvement in the recovery process? 
Because you have had, now, 41 years of involvement in this 
area, which is truly one of your passions.
    Mr. Gordon. Right. Mr. Chairman, thank you very much, 
members of the Committee. State involvement, State science, is 
often the best. It is certainly the most ground truthed; it is 
certainly most current. It would inform decisions. That State 
connection and the ability for States to be involved, private 
landowners to be involved, is absolutely essential for the 
success.
    I think the example you see in that, Mr. Chairman, is 
Wyoming's own efforts with the sage-grouse in the core areas.
    Senator Barrasso. When you take a look at what the bill 
does, which it delays that court's review of a rule delisting 
for at least 5 years during that post-delisting monitoring 
period, how does this specific provision help with effective 
State management of a recovered species?
    Mr. Gordon. Mr. Chairman, thank you for that question. As I 
mentioned in my testimony, one of the principal things about 
the scientific method is that you have to test what the 
hypothesis is, correct for mistakes that might have been made.
    In the case of this particular provision, it allows the 
States to make a plan. It actually demands that they make a 
plan, and that they then monitor that plan over time and see if 
it works or if it doesn't work. What we have currently, where 
everything is litigated almost immediately, we never get off 
the ground. So I think that is essential.
    Senator Barrasso. So my final question, based on what you 
just said about the science based decisionmaking, do you 
believe there is anything in this bill that we are introducing 
today, the Endangered Species Act Amendments of 2020, that 
would in any way erode the existing authorities of the 
Endangered Species Act in terms of the Secretaries of Interior, 
or Commerce, or Agriculture, or anything at all?
    Mr. Gordon. Mr. Chairman, in my review of the bill, and I 
read it again last night, it seemed that you specifically have 
pointed out that that erosion cannot occur.
    Senator Barrasso. Thank you, Governor.
    Senator Carper.
    Senator Carper. Thanks.
    Again, Governor Gordon, welcome. Great to see you again.
    As you know, I am especially interested in your views on 
funding, given your roles not just as Governor, but as State 
treasurer, a role I once was privileged to fill in Delaware. 
Your testimony talks about the importance of, you mentioned 
right at the end of your statement, you mentioned the 
importance of, I quote you, ``a predictable long term funding 
source.'' A predictable long term funding source for the 
Endangered Species Act.
    The legislation before us today, as best that I can tell, 
does not provide this, either for States, or for Federal 
agencies. We have a saying in Delaware, all hat, but no cattle. 
Actually, that is not a Delaware saying, but it is a great 
saying.
    But when I think of the authorization process, we authorize 
programs. That is a two step process: We authorize them, and 
then later on, we come back, and we appropriate money to make 
good. The authorization could just be an empty promise.
    But I have a question: Do you agree that our Committee 
should consider a funding strategy beyond just the 
reauthorization of the Endangered Species Act for Federal 
agencies and for States? And if you would, just elaborate on 
that, please.
    Thank you.
    Mr. Gordon. Thank you, Mr. Chairman, Ranking Member Carper. 
I think your question is a very good one. Reauthorization does, 
it appears to me, in this bill, also include some 
appropriations. To the degree that those can be improved, I 
certainly would not----
    Senator Carper. Let me just interrupt. I don't think that 
is the case. We can have another sidebar conversation. If that 
were the case, I wouldn't be focusing on it so much, but go 
right ahead.
    Mr. Gordon. OK. Thank you, Ranking Member.
    In my view, the Federal Government really does need to bear 
more of that burden, and I am going to encourage this Committee 
to look at that carefully. Wyoming, and out of that $2 million 
we spend, we get about a $100,000 from the Federal Government 
to meet that obligation. So that is the differential: $2 
million that the State spends, $100,000 that the Federal 
Government spends.
    Senator Carper. All right, thank you. Your testimony 
highlights Wyoming's work to help recover the black-footed 
ferret. I understand that voluntary conservation agreements 
between landowners, and I think with the U.S. Fish and Wildlife 
Service, have been a critical tool for recovering this specie. 
These voluntary conservation agreements provide regulatory 
certainty, and they support recovery for one of our Nation's 
most endangered mammals. It is a real win-win situation.
    However, the development and implementation of these 
voluntary conservation agreements and subsequent reintroduction 
of black-footed ferrets on private lands requires funding. 
Again, do you agree that Federal agencies could do more to 
promote voluntary conservation activities for black-footed 
ferrets and for species across the country, if they had some 
additional financial resources?
    Mr. Gordon. Mr. Chairman, Ranking Member Carper, I do agree 
that that would help. I also think the certainty that this bill 
provides also helps in promoting more cooperation between 
landowners.
    Senator Carper. All right, thanks. I have another question; 
I will just probably end up having to ask it for the record. 
You mentioned the roles the courts that are playing in review 
of these matters. It is my fourth term in the U.S. Senate, and 
in my first term, I was one of the lead Democrats on class 
action reform. In my second term, I was one of the lead 
Democrats on asbestos litigation reform.
    I have never been a big fan of venue shopping. I have never 
been a big fan of venue shopping, which you raised. In 
testimony we had just in the last couple of weeks, right here 
in this room, we talked about the decision by a, I think, a 
District Court decision with respect to this issue, and then we 
talked about a three judge panel, a unanimous three judge 
panel, I think this was Ninth District Circuit Court of 
Appeals.
    At the end of the hearing, I asked our witnesses, what kind 
of remedy was prescribed by the courts. And three items were 
mentioned. Two were fairly straightforward; one was more 
difficult, and I would just ask you to take a look at, and we 
will provide for you, the three remedies that were heard 
literally in this room a couple weeks ago, and ask you just to 
get back to us, as to which you think have merit or actually 
are doable. Thank you.
    And again, it is very good to see you.
    I am going to slip out; I have another hearing going on in 
the Committee on Homeland Security and Government Affairs with 
the Secretary of the Department. I will be back, but I may miss 
you when I return, so thank you so much for joining us, again.
    Senator Barrasso. Thank you.
    I think we have Senator Capito now, joining us remotely.
    Senator Capito. Yes. Thank you, Mr. Chairman, and thank you 
Governor, for being in our Committee today. I am sorry I am not 
there in person, but I am actually quarantining, so I am doing 
what the CDC is telling me to do.
    In mentioning some of the cooperative workload on this that 
the State and the Federal Government do, I was wondering, and 
you might have mentioned this, and I might have missed it in 
your statement, is there an example where an innovative habitat 
or species conservation plan that has been put forward first by 
Wyoming itself as a State plan, that it might be used as an 
example of ways that a State can really bring about the 
solutions granularly and help the Fish and Wildlife Service and 
others meet these challenges?
    You mentioned the sage-grouse earlier, I didn't know it 
that was an example of that.
    Mr. Gordon. Thank you, Mr. Chairman, Ranking Member Carper, 
and Senator Capito. The sage-grouse, in the core area strategy, 
first developed under Governor Freudenthal and then improved 
under Governors Mead, and I hope I have played a small role, I 
think is exactly the right example. It was a State led process 
that established a way to bring groups together to really 
discuss what are the core area habitat needs, and then to work 
with landowners and agencies to devise a program that has 
worked and has stood as an example for other Western States.
    Senator Capito. With that being said, then, as you move 
forward with that plan, when trying to collaborate with Fish 
and Wildlife, was that a contentious kind of role, or was it a 
total collaboration, the State leading the way with the Fish 
and Wildlife being an integral part of that?
    Mr. Gordon. Mr. Chairman, Senator Capito, it is a working 
group. We have a sage-grouse implementation team with a number 
of stakeholders that are on it. They work through process, and 
I won't say that it is all, that it is always a happy 
discussion. Sometimes there are serious conversations about, 
for instance, in the latest addition, how do we work to expand 
sage-grouse habitat, even if it is outside of core areas. 
Sometimes, that doesn't go as happily as other discussions do, 
but it always work through it.
    Senator Capito. Great. Thank you. I know that you mentioned 
in your statement, the sue and settle lawsuits that are very 
prevalent in this area. We have an issue with the Guyandotte 
crayfish over in my State of West Virginia, which is really 
impacting the ability of a part of my State to try to recover, 
and you could certainly identify with, being from Wyoming, from 
a major downturn in thermal coal. So we are finding ourselves 
at odds with this.
    How are you meeting that challenge in Wyoming? It is 
frustrating for us in West Virginia; it has to be frustrating 
for you in Wyoming as well, and sometimes I think when we are 
trying to present our different sides, we are not actually 
talking to one another, we are sort of talking above or at one 
another.
    How have you worked on the issues of the economic 
development issues as they are met with the sue and settle 
lawsuits?
    Mr. Gordon. Thank you, Mr. Chairman, Senator Capito, I 
would say that is the reason we are talking as much as we are 
about the grizzly bear. The grizzly bear is an animal that we 
have twice before worked on rules that could delist. As I said, 
the population has grown substantially, and we are frustrated 
at every turn by the same venue and what if scenarios.
    That is the reason I think this bill is so essential, 
because it allows for us to test whether the hypothesis works, 
and it provides the safeguards and safety valves that allow for 
a relisting should that be absolutely essential.
    Senator Capito. Thank you. Thank you, Governor.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you so very much, Senator 
Capito. We appreciate your participation from West Virginia.
    Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman, and thank you, 
Governor, for being here and for your very good testimony.
    I wanted to say amen several times, but instead, I will 
just focus a question or two on what I thought were a couple of 
the highlights, frankly, highlights of the legislation.
    I have never been a Governor, although there have been 
several in the room today already. But I was a State regulator, 
and one of my greatest frustrations in regulating at the State 
level Federal rules and laws, was when the Federal Government 
would try to impose its mediocrity on North Dakota's 
excellence.
    You have spoken to the challenge, and probably the greatest 
inhibitor to success, and I deem success, at least, in part to 
getting species delisted. We are looking at over 2,300 species 
and plants on the list today. Since 1973 only 60 have gotten 
off the list, so my measure of success, I think, would be 
delisting.
    I think one of the highlights of the legislation for me, 
and you pointed this out, is, of course, the prohibition on 
litigation or Federal lawsuits or lawsuits in Federal court 
during that State period, that period of after the delisting, 
or after success, in my view, of that State monitoring period. 
I find that really critical. I find it as common sense.
    But the argument against it, of course, is that, oh, we 
can't do that because, you know, the citizens have to have a 
venue. I think back to my days as a North Dakota regulator, and 
Wyoming is very similar to North Dakota in lots of ways other 
than the mountains and the grizzly bears, and I think, gee, who 
do the citizens have the greatest access to, if not their State 
legislators, their State Governors, their State regulators?
    I would think it is similar in Wyoming. Do you have pretty 
good access to good people, whether they be landowners, 
conservationists? In most cases, they are the same people, the 
same stakeholder groups.
    Mr. Gordon. Mr. Chairman, Senator Cramer, I think you speak 
exactly correctly. I think citizens have the best access to 
State agencies. I think that State agencies have people on the 
ground that work directly with landowners, and I think that the 
State involvement, that this particular bill promotes is 
absolutely essential to any working solution.
    The point you made about the Federal Government's sometimes 
one size fits all challenges just don't make sense on the 
ground. So I think having States involved, citizens involved 
early, makes for a good dialogue that is absolutely essential.
    Then again, you know, from the suing kind of provisions, 
what is essential is that we talk about what has happened, not 
necessarily what might happen or what you didn't consider when 
you were thinking about that. We can continually, the perfect, 
sometimes, is the enemy of the good, and the good thing that 
this Endangered Species Act did was to promote the delisting of 
animals.
    Senator Cramer. For sure, and of course, it also encourages 
voluntary participation in that effort. Wyoming, like North 
Dakota, has a lot of volunteers, again, landowners, 
environmentalists, professionals, and users of the land, in the 
case of Federal lands where there is a lot of multiple use. 
They all care about the same thing, and I think, want the same 
outcome. But I would think they would find it rather 
demoralizing to continually work to get something, to get a 
critter delisted, but only to have their success punished in 
the courts.
    Mr. Gordon. Mr. Chairman, Senator Cramer, I think it is 
demoralizing, talking to some of my landowner neighbors, 
absolutely, for a number of reasons.
    Senator Cramer. Well, thank you again for appearing. Thanks 
for your care about this and for your excellent testimony.
    I might just say, Mr. Chairman, that a lot of people are 
wondering, what is going to be the main issue when you talk to 
President Trump's next nominee to the Supreme Court of the 
United States? Mine is going to be this issue. That is, what is 
the proper role of States with our Federal Government in our 
Federalist system, because I think we have lost track of it for 
decades, and that erosion needs to be stopped, and I think, 
reversed. I think the Endangered Species Act is one of many 
examples, so thank you.
    Senator Barrasso. Thank you so much, Senator Cramer.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chairman.
    Taking off on what Senator Cramer just said, I share the 
same concerns that interplay between State and Federal 
Governments, especially when it comes to how we pay for things. 
That was interesting, hearing your discussion earlier, where 
you thought the Federal Government needed to do more. I think 
that is something that everyone that comes here to testify or 
to discuss anything, probably has that point of view.
    I think the even larger challenge is that this place is 
probably going to be in a position out of necessity to do less 
over time, and I know that can be discouraging and 
disappointing to many. So I think that when it comes to what 
are the responsibilities between States and the Federal 
Government, it is also going to be viewed in the context of how 
we have evolved over time to where, keep in mind, we borrow 23 
percent, we borrow 23 percent of everything we spend here on an 
annual basis.
    So for anyone listening, and especially people that come 
here to testify, I would hedge my bets a little bit on things 
that you want to make sure that get done in your own particular 
States, even when it does sound so imbalanced in what you 
cited.
    Pleasure to be speaking with someone, too, that comes from 
the business world. I am freshly out of it. Some of the 
differences between being here and running something, where you 
got that accountability, I think, probably, is more what a 
Governor has to contend with.
    I want to make sure, because I have one particular instance 
here in my home State, I want to describe it to you briefly and 
then see if you think that there would be remedies within the 
amendments that we are kind of talking about that would help 
this local concern be heard over all the other stuff that is 
involved with the Endangered Species.
    In my State, there is a place called Lake Freeman. Since 
2012, following low waters, that was a drought year, in the 
Tippecanoe River, the habitat for protected, freshwater 
mussels, the U.S. Fish and Wildlife Service has ordered the 
local electric company, which also has its own regulatory body, 
to release water through its dam out of Lake Freeman to raise 
the river's water level to protect six species of mussels. Of 
course, I am for that. I am a conservationist. I believe we 
have to do whatever we can to keep endangered species from 
becoming extinct.
    In this case, it has had a devastating effect on the local 
economy, because you can't put a boat into the water. The water 
level is 3 to 5 feet below the dock levels.
    Do you feel comfortable with what we are doing here that a 
grievance and a concern like that would be aired through the 
amendments we are proposing?
    Mr. Gordon. Mr. Chairman, Senator Braun, I do believe that 
this act provides better access by engaging local citizens and 
local governments earlier in the process to be able to find a 
solution that can best balance the needs of both the species 
and the economic interests that are there.
    I do believe that this act is a vast improvement. Is it 
perfect? Probably not, but on the other hand, I do believe that 
that is the best place for that solution to be found, at the 
local level.
    Senator Braun. Well, thank you, that is good to hear, and I 
think that will be kind of good for the folks at Lake Freeman 
to hear as well.
    I think, as we move forward to try to have that delicate 
balance between State and Federal obligations and who pays for 
it, we need to make sure, at the grassroots level, that anyone 
impacted is heard, as well. Thank you so much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you.
    Thank you, Governor, for being here. We appreciate your 
being here to testify. We have a second panel, and you are more 
than welcome to stay and listen to them.
    There may be members of the Committee that supply to you 
questions for the record, and we would ask that you try to 
reply and get those answers back to us in 2 weeks.
    So thank you, Governor. We are so grateful for your coming 
to DC to visit today to share your thoughts, your experience of 
your 41 years of commitment to this topic from Wyoming with all 
the members of the Senate and the Committee.
    Thank you, Governor.
    Mr. Gordon. Thank you, Mr. Chairman, and members of the 
Committee.
    Senator Barrasso. Now, I would like to welcome our second 
panel. Two members will be here, one directly, and one 
remotely, Ms. Priddy and Ms. Clark.
    I would like to welcome both of you here, Ms. Priddy in 
person, Ms. Clark, from Virginia.
    Ms. Priddy, I would like to ask you first to proceed with 
your testimony. Welcome to the Committee.

                  STATEMENT OF ALIESE PRIDDY, 
                  OWNER AND OPERATOR, JB RANCH

    Ms. Priddy. Thank you.
    Good morning Chairman Barrasso, Ranking Member Carper, and 
members of the Committee. I am Leisa Priddy, a native 
Floridian, and third generation cattle rancher.
    As a rancher, I am also a conservationist, managing and 
improving landscapes for my livestock as well as habitat for a 
wide variety of species, including those protected under the 
Endangered Species Act.
    I come to this Committee today to offer testimony that is 
representative of the varied hats I have worn throughout my 
career, which give me a unique perspective on the ESA and how 
to make species management and recovery efforts more 
successful. I hold a bachelor's degree in finance and also in 
environmental studies.
    In addition to running my ranch in southern Florida, I have 
served in a variety of wildlife and conservation leadership 
positions. I was appointed by then-Governor Rick Scott to serve 
a 6 year term on the Florida Fish and Wildlife Conservation 
Commission, and have served on the Ave Maria Stewardship 
Community District Board since its inception in 2005.
    My testimony today draws from each of my experiences that 
have allowed me to work with environmental groups, wildlife 
managers, ranchers, and government officials, who all want the 
same thing: A good outcome and brighter future for species, 
especially those that need additional protection to thrive.
    My testimony today will focus on two distinct themes: 
Empowering and including non-Federal expertise in ESA 
implementation discussions, and whether the ESA as currently 
implemented is meeting all of its objectives, and if not, why.
    Mr. Chairman, as a former Fish and Wildlife Conservation 
Commissioner in a State that currently has more than 130 
species protected under the Endangered Species Act, I 
appreciate that your bill recognizes the incredible investments 
States like Florida have made in wildlife conservation and 
recovery efforts.
    Each year, States spend billions of dollars managing 
species and ensuring their lands are filled with robust 
populations of the plants and animals that call them home. I 
saw this first hand as a commissioner through the efforts made 
to recover panthers and manatees, and I know that Florida is 
not alone in that commitment.
    States are uniquely positioned to coordinate resources from 
private landowners, ranchers, industries, non-governmental 
organizations, and regional authorities to ensure the best 
outcomes. It is for that reason I fully support your proposal 
to allow States to lead recovery teams during the ESA process.
    States have primacy over wildlife management, meaning they 
bear sole responsibility for ensuring laws, science, and 
partnerships are in place to have robust populations. In cases 
where a species needs additional assistance, States' knowledge, 
authorities, and partnerships are invaluable. Allowing States 
to demonstrate that leadership recognizes their broad capacity 
to manage and provide certainty to ranchers like me, who have 
invested in conservation activities.
    Further, States work with ranchers and other groups to 
engage in voluntary conservation efforts, even outside the ESA 
context. These voluntary efforts provide predictability for 
ranchers, land managers, and regulatory authorities alike, and 
are often the basis for longstanding partnerships. Your 
proposal to allow voluntary conservation efforts to be factored 
into ESA determinations is a recognition of the value of these 
voluntary efforts, and allows for the ESA determination process 
to be more accurate.
    I always try to make well informed decisions, and the Fish 
and Wildlife Service is no different. Allowing them to 
recognize these voluntary conservation agreements is just 
common sense, and will make these agreements more attractive in 
future recovery efforts.
    I come to this Committee today knowing that discussions of 
changes to the ESA are often met with significant controversy. 
We hear phrases like ``gutting the ESA,'' but most of that 
emotional signaling is based in fear.
    We are all concerned about what would happen if the ESA 
weren't effective, but I think in large part, we are already 
there. The ESA has achieved some significant and popular 
recovery efforts. The bald eagle and the manatee are just two 
examples. But thousands more species have languished on the 
list due to lack of attention and a system that just hasn't 
worked for them.
    In your bill, you recognize several challenges that have 
made the ESA less effective over time: A system that doesn't 
account for local and State expertise, an inefficient way to 
prioritize resources to the most imperiled species, and a 
system that makes it almost impossible for the Fish and 
Wildlife Service to have the ability to declare victory when 
recovery is achieved.
    I have some additional comments, Mr. Chairman, but I 
understand that my time is out, so I will turn it back to you, 
thank you.
    [The prepared statement of Ms. Priddy follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Well, thank you so very much. We 
appreciate your being here and traveling from Florida.
    I note that our head of Game and Fish in Wyoming is here, 
Brian Nesvik, who is a former game warden. You probably have a 
lot of overlap, and have a chance to maybe visit after the 
hearing, but that you so much for being here with us.
    We are now going to turn and go remotely to Leesburg, 
Virginia, where we are being joined by Jamie Rappaport Clark, 
who is the President and Chief Executive Officer of Defenders 
of Wildlife.
    Thanks so much for being with us today.

              STATEMENT OF JAMIE RAPPAPORT CLARK, 
            PRESIDENT AND CEO, DEFENDERS OF WILDLIFE

    Ms. Clark. Thank you.
    Good morning, Mr. Chairman, Ranking Member Carper, and 
members of the Committee.
    My name is Jamie Rappaport Clark, and I am the President 
and CEO of Defenders of Wildlife, a national non-profit 
conservation organization dedicated to the protection of all 
native plants and animals in their natural communities. We 
represent more than 1.8 million members and supporters across 
the United States.
    Thank you for inviting me to speak about my experiences 
conserving imperiled species under the Endangered Species Act. 
My testimony draws from almost four decades of experience in 
wildlife conservation in the Federal Government, the nonprofit 
and private sectors, including service as Director of the U.S. 
Fish and Wildlife Service under President Bill Clinton.
    Before I discuss the legislation being considered here 
today, it is important to first recognize that we are in the 
midst of an alarming and catastrophic biodiversity crisis. A 
biodiversity crisis is not a far away problem; it is unfolding 
here and now in the United States. Study after study has shown 
that this is a pivotal moment for wildlife, and ultimately, for 
humanity.
    A recent global assessment on the status of biodiversity 
and ecosystem services found that as many as 1 million species 
are facing extinction. Just last week, the United Nations 
Convention on Biological Diversity released a sobering report 
warning that humanity is at a crossroads, and the extinction 
crisis is intensifying.
    We are losing species faster than ever before in human 
history, and this devastating loss is even further exacerbated 
by the impacts of climate change. Our actions now will 
determine if our country will endure and our planet will 
sustain our priceless natural legacy for generations to come. 
If we don't act now, science tells us the consequences will be 
dire.
    The United States can and should lead the way by 
establishing a national strategy focused on stemming the loss 
of biodiversity, which includes fully funding the Endangered 
Species Act. The legislation being considered today would take 
us in the wrong direction at this critical moment for our 
planet.
    The ESA is our Nation's flagship law for conserving and 
recovering imperiled species, and is the cornerstone of our 
commitment to preserving life on Earth, and it is a strong 
foundation on which to build a national commitment to 
conserving biodiversity.
    Since its enactment more than 45 years ago, it has been 
remarkably effective at protecting our Nation's biodiversity. 
Almost every listed species is still with us today, and 
hundreds are on the path to recovery because of the protections 
provided by the Endangered Species Act. However, woeful 
underfunding and inconsistent implementation have rendered it 
less effective than Congress envisioned, or any of us expected.
    The bill before the Committee today does not strengthen the 
ability of the ESA to conserve imperiled species. Instead, it 
significantly rewrites key portions of the law to prioritize 
politics over science.
    It inappropriately shifts responsibility for key 
implementation decisions from the Federal Government to the 
States, many of which do not have sufficient resources or the 
legal mechanisms in place to take the lead in conserving listed 
species.
    It places significant new administrative burdens on already 
overburdened agencies, both Federal and State, and it turns the 
current process for listing and recovering threatened and 
endangered species into a far lengthier and less transparent 
process that precludes public and judicial review of key 
decisions.
    These proposed changes to our Nation's most effective law 
for protecting species from the finality of extinction will 
result in significant harm to at risk species and their 
habitats, undermine collaborative conservation efforts, and 
blatantly ignore what scientists are telling us over and over 
in unified voices, further compounding the environmental 
challenges we are facing today. Preserving our wildlife in 
their habitat is a responsibility that transcends human 
lifetimes.
    Our future depends on the actions we take now. Turning the 
tide on biodiversity loss and addressing climate change will 
not be easy, but our path forward as a society depends on it. 
At this critical moment for the biological health of our 
planet, the Nation must renew its commitment to conserving 
imperiled species and their habitats, not undercut the laws 
that protect them.
    Regrettably, the legislation being considered today would 
weaken the ESA and make it harder to achieve the progress we 
must make to confront the disturbing rate of extinction our 
planet is facing and address the devastating loss of nature 
that we know is real.
    Thank you, Mr. Chairman, for the opportunity to testify, 
and I am happy to respond to any questions.
    [The prepared statement of Ms. Clark follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Well, thank you so very much for joining 
us today remotely. We appreciate it.
    We do have a number of Senators who are looking forward to 
asking questions, and let me start with Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman. I think that ESA 
reform is long overdue, and I think that it is an issue that, 
when I was Attorney General for the great State of Alaska, it 
actually had bipartisan support among all the AGs, particularly 
the western States' Attorneys General, just because we 
recognize, both Democrats and Republicans, that although the 
law has a lot of important aspects to it, there has been a lot 
of abuse to it as well.
    Ms. Priddy, I have some questions for you. One, I 
appreciated your focus on the ability of States. My State has a 
really, really professional and outstanding Department of Fish 
and Game and some of the foremost experts on the species in 
Alaska, some of the foremost experts on these species in the 
world. They also understand how imperative it is to be able to 
balance protection of the species, which we all want, but also 
economic opportunity for our citizens and jobs.
    Let me ask a couple of questions. One, can you talk a 
little bit more about where you believe the States' role should 
be, particularly given the expertise that a lot of States bring 
to these issues and the understanding of the economic balance 
that needs to be struck, versus Federal agencies that often 
don't have that deep kind of understanding?
    Ms. Priddy. Well, I think that States have a very unique 
perspective on everything that goes on in their State, both 
economically and for conservation efforts. There are other 
agencies within the State, also, that can contribute to that, 
especially in Florida. We have our own Department of 
Agriculture, we have different environmental commissions that 
overlook everything. So I see them working together as a group, 
and being able to address those situations that are unique to 
their State.
    Senator Sullivan. Let me ask a follow up. Some of my 
colleagues on the other side of the aisle who particularly want 
all the power in the Federal Government, say well, you can't 
really trust the States. They don't really care about the 
species or the people. They don't understand the ``science.'' A 
lot of times, they use the word science.
    Trust me, during the Obama administration, I saw the abuse 
of science in my State of Alaska all the time, all the time. 
Don't even get me going on that one.
    But how about that argument that we often hear, well, you 
can't really trust the States? Isn't it actually the opposite, 
the States are on the ground with the people, with the 
expertise, knowing the species that are unique to the 
ecosystems of Florida or Alaska?
    Isn't it better to trust the States? Isn't that a more 
effective way to effectuate effective ESA policy?
    Ms. Priddy. Well, I would certainly take exception to the 
position that the Federal Government is better, in a better 
position to manage these endangered species. In fact, having 
been a Florida Fish and Wildlife Conservation Commissioner, it 
is really almost offensive.
    Senator Sullivan. Yes. I agree with that.
    Ms. Priddy. I have seen first hand how engaged our State 
has been. Of course, speaking for Florida only, we were able to 
keep our black bear from being considered for listing because 
of the exceptional efforts that were made, and I also see how 
our State on a regular basis provides greater funding than the 
Federal Government does to species that are already on the 
list.
    Senator Sullivan. Let me follow up on that. I agree exactly 
with what you just said.
    Again, I think there is a lot of area for bipartisan 
reform. Let me give you one example.
    Some of the more extreme radical groups, Center for 
Biological Diversity, for example. They have undertaken this, 
and trust me, they try to shut down my State all the time, kill 
jobs, the whole bit.
    They have undertaken these examples of multiple listing 
petitions, where they literally look to list 50, 60, 70, 80. 
Most people, even my colleagues on the other side of the aisle 
believe that is the kind of abuse that has taken place under 
the ESA that needs to be reformed. I think even the Obama 
administration agreed with that, in general.
    Do you agree with that, those kinds of abuses? Are there 
other abuses to the Federal law right now? We all want to make 
sure we have robust species, protect our environment, protect 
our species. But what are some of the abuses that you see in 
the current ESA that we could address that you think would be 
important?
    Ms. Priddy. Absolutely, I don't agree that litigation is 
the way to go. I think it ties up resources that could be used 
better elsewhere, working together. Because the goal that 
everybody wants is the removing or delisting of the species 
from the list.
    I think that the bill having that 5 year period after a 
species is delisted would be an exceptional opportunity for the 
States to show what they can actually do. So I think that is a 
key component of the bill that would definitely help the 
States.
    Senator Sullivan. Great, thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Sullivan.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman, and I thank all of 
our witnesses.
    First, I would like to ask unanimous consent to submit 
letters signed by the Southern Maryland Audubon Society, the 
Audubon Naturalist Society of Chevy Chase, Maryland, and Born 
Free USA, an international wildlife conservation and animal 
protection organization, headquartered in Silver Spring, 
Maryland, expressing oppositions to the legislation that was 
drafted on behalf of the thousands of members of these 
organization, for the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Senator Cardin. Mr. Chairman, I just really want to agree 
with my friend from Alaska. We want to work in a bipartisan 
manner. The Endangered Species Act has been a critically 
important law for the environment, and both Democrats and 
Republicans agree on it. So reform should be done together.
    I take issue with the Chairman's bill not because of the 
sincerity of it, but because I just don't think it deals with 
the fundamental problems that we have in the Endangered Species 
Act, as Senator Carper has pointed out.
    In my State, I know that we were successful in dealing with 
the Delmarva fox squirrel. We got it delisted. But we did that 
through management, which requires resources. If we are looking 
at reform, we need to find out how we can get adequate 
resources to have the right type of management so that we can, 
in fact, have more success stories.
    Over 50 species have been successfully recovered and no 
longer need Federal protection. That is exactly what the 
Endangered Species Act is about, is to set up systems so that 
we can, ultimately, remove the species from the endangered 
species list.
    I want to ask Jamie Clark a question, if I might, and that 
is, in my State of Maryland and in our region, the Chesapeake 
Bay is, of course, one of our great environmental challenges, 
and all the stakeholders in our State and our region come 
together, Democrats, Republicans, the State government, the 
local governments, the landowners, the developers, the local 
governments and wastewater management, our farmers, in an 
effort to save the Chesapeake Bay.
    Part of that is to make sure we have the species that give 
for a healthy bay. I would just like to get your view as a 
matter of priority in dealing with the Endangered Species Act, 
what impact will a change in judicial review have on our 
efforts versus additional resources that we need in order to 
deal with the species protections?
    Ms. Clark. Thank you, Senator. Well, first of all, the 
Chesapeake Bay is a fabulous example of an ecosystem that has, 
what, five States, multiple jurisdictions coming together to 
conserve a pretty spectacular ecosystem. It is managed by this 
national overarching authority of the Endangered Species Act, 
and one of the most important pieces of legislation to guide 
recovery of the bay and all of the attendant tributaries and 
land around that system.
    Since the Chesapeake Bay spans five States and numerous 
endangered species, this bill could introduce all kinds of 
confusion as to whose [indiscernible]. Without the national 
overarching Federal involvement and Federal stewardship that is 
governed by the Endangered Species Act today, there is going to 
be a complete breakdown, or could be a complete breakdown, over 
who has authority to make decisions and how those decisions are 
made without the overarching national imperative.
    Judicial review, the whole issue behind the litigation and 
so much of the debate on litigation today is very much tied to 
high profile litigation on high profile species. I get that. 
But the citizen suit provisions in the Endangered Species Act, 
as well as other laws, really are just there to help hold 
agencies accountable. I remember that clearly from my time in 
government, for sure. They hold agencies accountable to uphold 
the law and allow citizens that engagement.
    Citizens deserve and should have a role in holding agencies 
in our government accountable to help Congress ensure that the 
laws that they enact [indiscernible] appropriately. The 
majority of the litigation brought by the environmental 
community is about deadlines. That is completely tied to 
inadequate resources, and frankly, the majority of litigation 
on the ESA is brought by industry and property owners than by 
conservation groups.
    So we can debate the issue of litigation, but it is a check 
and balance, and it is essential to holding our decisionmakers 
accountable for upholding the law.
    Senator Cardin. Let me just make one correction: there are 
six States in the Chesapeake Bay.
    Ms. Clark. Oh, OK, sorry.
    Senator Cardin. I wouldn't want to leave any of our States 
out. Second, let me just underscore the point that you made in 
that the Chesapeake Bay Program is basically from the States 
coming together. It is a State initiated program, as the 
Endangered Species Act, we want the States to be actively 
engaged.
    Ms. Clark. Absolutely.
    Senator Cardin. But you need to have an umpire here. You 
need to have some cohesiveness here, so that everybody does 
what is right. That is why we have the Federal partnership on 
the Chesapeake Bay, as we need to be able to enforce our 
endangered species laws sometimes when States aren't doing what 
they should be doing on management.
    Thank you, Mr. Chairman. I appreciate this hearing.
    Senator Barrasso. Thank you, Senator Cardin.
    Ms. Priddy, if I were to just ask you, the bill that we are 
talking about today seeks to promote regulatory certainty, and 
it does that by encouraging stakeholders to enter into 
conservation agreements and to invest in conservation efforts.
    We heard from Governor Gordon a number of the things that 
are being done in Wyoming. This includes ensuring that such 
agreements and efforts are formally considered when deciding 
whether or not to list a species under the Endangered Species 
Act.
    So I would like to ask you, the bill also provides 
increased funding to support proactive, voluntary conservation 
activities undertaken by private landowners. You found yourself 
in that situation. How will these provisions further motivate 
landowners and ranchers to engage in voluntary conservation of 
the land?
    Ms. Priddy. Well, ranchers are business people, and 
business people like certainty, as much as oftentimes there 
isn't as much as we would like to have. I think that the bill, 
in considering some of these efforts to be good 
conservationists, would allow us some more of that certainty to 
take into consideration while we are doing our business 
planning.
    I know myself, we have a conservation easement on our 
property. It is an agricultural conservation easement, but we 
were willing to put that property aside in perpetuity, knowing 
that that property can never be developed. So it gives the 
public certainty, and it gives us as landowners certainty.
    It is probably not a surprise that whenever ranchers are 
told, we are from the Federal Government and we are here to 
help you, they might meet with some skepticism. So anytime we 
can have especially Federal regulatory certainty, it is 
helpful.
    Another effort that we are involved in is habitat 
conservation plan for landowners in our area, which, again, 
working with the U.S. Fish and Wildlife Service will give you 
that certainty. One of the problems with seeking that HCP is 
the length of time that it takes. I think that that is a 
reflection on the resources that are limited within the Federal 
Government that have to be spread so thin.
    Senator Barrasso. Let me ask you one other question. In 
2018, we had testimony before this Committee by Nick Wiley, who 
is the former--I think you know--Executive Director of the 
Florida Fish and Wildlife Conservation Commission. He stated in 
that testimony, he said, ``Current provisions and 
interpretations of the Endangered Species Act,'' he said, 
``still result in significant roadblocks, limiting,'' he said, 
``our ability to participate as a full, jurisdictional 
partner.''
    So, he cited black bears, manatees, as examples where 
Florida should have been more closely involved as a State. So 
how would this legislation improve States' abilities to 
participate in the listing and delisting of species? Why would 
that be good for conservation?
    Ms. Priddy. Well, I think Florida has so many great 
examples of species that the State has dedicated tremendous 
resources, folks on the ground, financial resources. 
Oftentimes, it is far in excess of what the Federal Government 
is able to dedicate to the recovery of that particular species, 
the manatee being a great example. I truly don't think that the 
manatee would have recovered like it has unless it had the 
support of Florida.
    The bear, as I mentioned before, we were actually able to 
keep from being delisted because of efforts that Floridians and 
the FWC put forth to take the steps and do the research that 
was necessary to keep it off the list. It is a recovery story 
that any State would be happy to have.
    Senator Barrasso. Thank you. Thank you for that answer.
    I would like to now turn to Senator Booker.
    Senator Booker. Thank you, Mr. Chairman, and Senator 
Carper, as well.
    I want to start off by saying that the Endangered Species 
Act, and I hope we can all agree, it has been really successful 
in a sense that 99 percent of all the wildlife under its 
protection have been saved from extinction, 99 percent of a 
success rate.
    And while the huge task of recovering a species from the 
brink of extinction is often a decades long endeavor, the 
majority of species that have been listed under the ESA are 
recovering within the timeframes that were projected.
    But let's recognize, though, just how dire of a global 
crisis we are in. We are in one of the handful, going back to 
the dinosaurs, one of the handful of global extinction crises. 
It is estimated right now that one in six species are 
threatened with extinction in this century alone, one in six. 
According to a report recently released by the World Wildlife 
Fund, it is estimated that the global populations of fish, 
birds, mammals, amphibians, and reptiles declined by 68 percent 
between 1970 and today.
    It is incredible. It really means that we have lost more 
than two-thirds of all wildlife in the last 50 years. Species 
are going extinct right now thousands of times faster than 
natural extinction rates.
    These are staggering, tragic numbers that we all have to 
recognize for the sake of humanity, because this is not just a 
crisis for wildlife; destruction of habitat, and loss of 
biodiversity is a threat to humanity; it is a threat to all of 
us. Because we rely upon nature for food, shelter, medicine, 
and so much more.
    Scientists are telling us that if we want to prevent 
another pandemic like the coronavirus, for example, from 
happening, we need to stop destroying forests and other 
ecosystems. They are directly related to the spread of such 
global pandemics.
    Yet right now, today, in the United States, we are losing, 
on average, a football field's worth of natural resources, of 
natural areas to development every 30 seconds. Every 30 
seconds, a football field's worth of natural areas are being 
lost to development.
    Given the crisis we are facing, I believe that this bill we 
are considering today is actually a step in the wrong 
direction. Rather than focusing on ways we can increase our 
conservation efforts and increase our funding for protection 
and to protect species at risk, this bill moves us away from 
the use of the best available science and would delay and 
restrict judicial review.
    This is not a choice between jobs and our economy and 
protecting our natural species and wildlife. It is actually 
something that we can do both. In fact, if we look ahead more 
than just 2 years or 4 years or 60 years and election cycles 
and look decades into the future, taking action now will 
actually save tremendous economic opportunity and well being in 
future generations.
    What I would like to do with the short remainder of my 
time, about 2 minutes, is ask Ms. Clark, to give you the 
remainder of my time, just to expand upon the comments you made 
in your opening statement about this crisis we are facing, this 
global extinction event that we are in, and what natural 
biodiversity strategies might address the crisis that we are 
in.
    Ms. Clark. Thank you, Senator. Well, you did a fabulous job 
teeing it up, so thank you for that. I will just amplify on 
your comments.
    We have 1 million species at risk of extinction, it is 
huge, huge from every taxonomic group. Seventy-five percent of 
land and 66 percent of rain habitats are already significantly 
modified. Populations of wildlife are dramatically reduced 
worldwide, and certainly here in the United States.
    You mentioned the Living Planet Index that came out just a 
few weeks ago, very sobering news for our world. Coral reefs 
are now half their historic size, and they are essential to the 
health of our marine environment. All signs are pointing to 
dramatic declines of biodiversity, and the looming 
[indiscernible].
    And you also mentioned, Senator, which I would agree with, 
is that the effects of a biodiversity crisis extend to us. So 
goes nature, so goes us. We have a half a billion dollars of 
crops at risk every year because of the loss of pollinators. 
That will collapse the food industry.
    The zoonotic disease, you mentioned coronavirus, the COVID-
19 crisis, as well as many other diseases result from a decline 
in clean, fresh water, and the list goes on and on.
    But to the national biodiversity strategy you asked me 
about, we know we are facing a biodiversity crisis. That is 
unequivocally clear. Yet we haven't adopted a strategic vision 
for just that crisis, and we need to. We can, and we should.
    We need to set a policy for protecting our natural heritage 
on a continental scale, and direct Federal agencies working 
with States, Tribes, and other stakeholders to advance that 
goal in a very systematic fashion.
    Senator Barrasso. Ms. Clark, if I could just, because the 
Senator turned over his remaining time, we have Senator 
Gillibrand wanting to ask a question, so if you wouldn't mind, 
I want to go to Senator Gillibrand.
    Ms. Clark. Certainly.
    Senator Barrasso. Senator Gillibrand, the floor is yours.
    Is she not there?
    Senator Duckworth, if you are standing by, if I could turn 
to you first while we are trying to get Senator Gillibrand 
connected.
    Senator Duckworth.
    Senator Duckworth. I am ready to go, Mr. Chairman.
    Senator Barrasso. Thank you. Please proceed, thank you.
    Senator Duckworth. Thank you so much. I would like to thank 
both you and the Ranking Member for having today's hearing, and 
also to Ms. Priddy and Ms. Clark, I want to thank you both for 
joining us here today.
    My first question has to do with the measuring of success 
for the Endangered Species Act. My Republican colleagues often 
point out that only 39 species have ever been delisted from the 
Endangered Species Act after experiencing a population 
recovery. However, a different measure puts the Endangered 
Species Act in terms of how few species that have been listed 
have gone extinct.
    Ms. Clark, can you elaborate why this second measure, where 
you look at how few of these species have been listed, have 
actually gone extinct is a better picture of success for the 
Endangered Species Act? Thank you.
    Ms. Clark. Certainly, thank you, Senator. The Endangered 
Species Act is a law of last resort. Species come onto the 
Endangered Species Act and are protected by that statute only 
after State and other local authorities and protections have 
failed. So oftentimes, by the time a species is listed and 
protected by the Federal Government, it is in pretty dire shape 
and bumping up against extinction.
    That typically happens after decades of decline, so we 
shouldn't expect species to just flip and turn around. It is 
not like flipping on a light switch when the Endangered Species 
Act comes into its protective status.
    What is remarkable about the number of species on the list 
is how many of them have continued to sustain, knowing that we 
got to them almost too late. The fact that so few have gone 
extinct after being protected by the Endangered Species Act is 
a remarkable measure of success.
    The expectation that species would recover overnight, or 
even quickly given the dire straits most are in by the time 
they are protected by the law, is an inappropriate measure for 
sure, and often affected by lack of funding that is invested to 
allow those species to begin their recovery journey.
    Senator Duckworth. Thank you. The Endangered Species Act 
provides a critical framework, as you were saying, to protect 
endangered and threatened species and their habitats. A study 
in 2018, I understand, found that one-fourth of listed 
endangered species lack final recovery plans. Of species that 
do have plans half of them took more than 5 years to finalize 
after a species was listed, and half of all recovery plans are 
more than 20 years old.
    In order to ensure that the Endangered Species Act can 
provide meaningful protection to endangered and threatened 
species, it needs secure and sufficient funding to make sure 
that these plans can be completed, updated, and kept relevant, 
and that the work of saving these species can be completed.
    Can each member of the panel briefly speak to the role 
funding plays in conserving these species? I would like to turn 
over the remainder of my time to the panelists to answer this 
question. Thank you.
    Senator Barrasso. Thank you so very much, Senator, I 
appreciate it.
    Senator Duckworth. Thank you.
    Ms. Priddy. I guess I will go ahead. This is Liesa Priddy.
    To address that question, yes, I think that funding is 
essential to being able to successfully recover these species. 
But again, I feel that in many cases, it has been the States, 
on their shoulders, to fund the efforts that are made for these 
species' recovery. Often, the Federal funding just isn't there 
to provide all the resources that are needed for each 
individual species.
    Ms. Clark. I would add that the Endangered Species Act has 
been severely underfunded for decades, and that speaks to both 
the State need, as well as the Federal need, so States 
certainly need more resources, as does the Federal Government. 
The most recent evaluation suggests that less than 25 percent 
of the recovery funding that is needed, that scientists say is 
needed for the species that are listed, has been provided at 
either the Federal or the State level.
    So this is pretty dire. We can't expect species to recover 
without investment. The States are doing the best they can; the 
Federal Government is doing the best it can. But this is 
really, basically an issue about investment and whether or not 
we are going to address this national commitment that, frankly, 
is a rounding error of the budget that is deployed for a big 
part of the government.
    Senator Barrasso. Thank you so much, Senator Duckworth.
    Senator Gillibrand, I know we have been having a little 
trouble technically. Hopefully, you are able to join us now and 
ask your questions. Thanks so much for your patience.
    Senator Gillibrand. I am. Thank you so much, Mr. Chairman.
    To Ms. Clark, I am concerned with provisions in this bill 
that would significantly limit the ability for citizens to use 
judicial review to hold decisionmakers accountable when a 
species is delisted from the Endangered Species Act. The 
proposed bill would not allow for judicial review for delisted 
species until the completion of a monitoring period of at least 
5 years.
    If the species is delisted prematurely and loses ESA 
protections, what kind of damage could occur to that species 
over a 5 year timeframe?
    Second, absent judicial review, what remedies would 
citizens have to reverse a harmful agency decision before the 
end of the monitoring period?
    Last, would you agree that judicial review is important to 
ensure accountability and national public trust in Endangered 
Species Act decisions?
    Ms. Clark. Certainly. I will try to tackle them in that 
order, but they might blend.
    The barring of judicial review for a decision to delist is 
hugely troublesome because it completely eliminates the ability 
to hold the government accountable for the decision that they 
make. So if the science is saying something different, and the 
community or citizens are not allowed to challenge it, the 
species will continue to decline, continue to lose habitat, it 
will be in worse shape than it was before delisting, and the 
citizens are powerless to assert protections.
    If there are politically motivated delistings, pretty 
significant damage can occur. I find that incredibly 
troublesome, that agencies can't be held accountable for 
decisions to delist, but they can certainly be challenged if 
they list. So that seems to be lopsided, because recovery is 
guided by science, as is the need to list, which gets at your 
other questions about the importance of judicial review.
    The role of litigation is incredibly important, not to 
undermine or to attack good decisions guided by science. But 
the citizen suit provisions in this law as well as other 
environmental laws help hold agencies accountable, help hold 
them accountable to uphold the law and allow citizens to help 
Congress ensure that the laws that they enact are doing what 
they are supposed to.
    So to blame litigation is the wrong victim or the wrong 
target. This is a law that is guided by science. The species 
tell us how they are doing, and if species are in decline, and 
there is no way to stop it or no way to interject or intercede, 
then, worst case scenario, we could watch something go extinct 
with no ability to stop it.
    Senator Gillibrand. Well, some of the most visible success 
stories of the ESA relate to the recovery of iconic, endangered 
birds, such as the bald eagle and brown pelican. The U.S. Fish 
and Wildlife Service has also found that more than 46 million 
people engage in birdwatching, and millions more benefit from 
their continued presence in the communities and landscapes. 
Unfortunately, recent studies, including from the Cornell Lab 
of Ornithology, have found that bird populations are facing 
long term declines and significant threats from climate change.
    Can you talk a little bit about why the ESA has been 
critical for recovering birds and why it will continue to be so 
important going forward? Second, would you also elaborate more 
broadly on the eco-tourism benefits of protecting other types 
of threatened and endangered species?
    Ms. Clark. Sure. Birds are amazing critters, and they are 
often indicators for the health of our planet, for the health 
of the ecosystem. While the bald eagle, the brown pelican, the 
peregrine falcon have been unbelievable successes, all told, 
North American bird populations have declined by nearly 3 
billion birds since 1970. That is, I think, it is split, like, 
a million birds from the forest systems, and a 53 percent 
decline in grasslands. That is a devastating loss for such a 
significant group of wildlife that Americans love and enjoy 
routinely.
    We know the success stories that you mentioned, for sure. 
There are plenty of others that have been delisted due to 
recovery, and ongoing efforts afforded by the Endangered 
Species Act are bringing back some amazing birds, like the red 
cockaded woodpecker, the piping plover, the golden-cheeked 
warbler, the red knot. It is the Endangered Species Act that is 
compelling those partnerships and those checks and balances to 
protect these species from going off the cliff, and it is 
significantly important.
    Birds are so essential to the fabric of life and to the 
circle, the ecosystem web, that without vibrant bird 
populations, the entire ecosystems will be in trouble. Right 
now, I think birds are heavily represented on the list, more 
than 300 species listed today, and eco-tourism benefits a great 
segue.
    The last survey done by the Fish and Wildlife Service found 
that more than 100 million Americans participated in fishing, 
hunting, and other wildlife associated recreation and spend a 
$156 billion while doing so. Eighty billion dollars of that was 
expended by 86 million Americans who engage in wildlife 
watching, especially birdwatching.
    Especially at a time like this, in the middle of all this 
pandemic and social distancing, birdwatching is escalating off 
the charts. People want to get outdoors; they want to enjoy 
nature, and they are willing to invest and pay for it. So 
threatened and endangered species are particularly popular, 
again among the birdwatchers, and they often, rare bird alerts, 
pretty exciting in this country.
    The ability to enjoy, whether you are feeding them or 
counting them or adding them to your life list, the Endangered 
Species Act has protected some of our most iconic birds, has 
recovered many of our important birds, and is essential to how 
we address the biodiversity challenge we are facing today.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Van Hollen, thank you for your patience. We look 
forward to hearing your questions.
    Senator Van Hollen. Well, thank you, Mr. Chairman. Thank 
you and the Ranking Member and to all our witnesses. Let me 
just associate myself with remarks from some of my colleagues, 
since a lot has already been said.
    You all touched on the issue of funding for the Endangered 
Species Act. I think, when the Western Governors got together, 
that was a consensus position, a bipartisan view that we needed 
more resources.
    Ms. Clark, thank you for mentioning the issue of protecting 
the migratory birds and other birds in Maryland. We have two 
national wildlife refuges, Eastern Neck and Blackwater Wildlife 
Refuge, and they both provide essential refuge for endangered 
species.
    Ms. Clark, let me just ask you about the current 
relationship between the Fish and Wildlife Service and State 
wildlife personnel, because during the course of these 
hearings, it has been my impression from all the witnesses that 
the Fish and Wildlife Service personnel do collaborate very 
closely with the State personnel. I know that has been true in 
Maryland.
    In fact, we just passed a bipartisan bill, Senator Capito 
and myself, called the WILD Act, supported, of course, by 
Senator Cardin, who we heard from earlier, and others. It is 
part of the ACE Act now, which would expand the relationship 
between our State stakeholders and the Fish and Wildlife 
Service. Can you just, based on your experience, can you 
discuss the nature of that cooperation as it currently exists?
    Ms. Clark. Yes, absolutely. The Fish and Wildlife Service 
has always taken the relationship and the partnership with the 
States very seriously. I know I did when I was director, and in 
fact, Florida is a classic example. Nick Wiley is a good 
friend. I have great respect for Nick and the work that he did 
in Florida, and Florida continues to lead the way on a lot of 
conservation initiatives that benefit species.
    Much of the ESA's success is because the Service has 
developed partnerships with the States to conserve and recover 
threatened and endangered species. It is not a debate, and it 
is not a contest. It takes both the Federal Government and the 
States working together.
    The State involvement is particularly important for some of 
the reasons that were mentioned in the testimony by the 
Governor and by my colleague from Florida, particularly 
important given the knowledge base and their relationship with 
private stakeholders within the borders.
    It is important also to note that we talk about the 
woefully inadequate funding for the States and for the Federal 
Government to address imperiled species. The last study that 
was done suggests that the States have only been able to 
provide about 5 percent of the ESA funding that is necessary to 
address the needs of the listed species today.
    So the current Endangered Species Act is plenty flexible to 
allow for that State contribution, to respect that State 
contribution, and to partner with the States to ensure that 
their roles are expanded and important. But we don't need to 
risk the act's effectiveness or the national contribution or 
the national oversight of the law to do that. There is plenty 
of administrative flexibility.
    I have never known, regardless of the political party, 
there is not been a Fish and Wildlife Director, myself or since 
me, that has not respected or enjoyed very close relationships 
working with the States.
    Senator Van Hollen. I appreciate that, and as I read the 
proposed changes, it is hard for me to identify any other 
Federal law where we are trying to establish a Federal backstop 
here to protect endangered species where the Federal 
Government, essentially, relinquishes more ultimate control 
over the results.
    In your experience and looking at the proposed draft, what 
do you think might have happened in some of what we would 
consider early success stories? For example, I know the State 
of Alaska opposed adding polar bears to the threatened species 
list. If this draft were in effect, this proposal, where do you 
think we would see different outcomes than we have today?
    Ms. Clark. First of all, Federal oversight through the 
Endangered Species Act only comes into play when the States 
have been unable to conserve species within their borders using 
State means or State authorities. There is not one State today 
that has a law at the State level equal to the Federal 
Endangered Species Act. In fact, there are two States, Wyoming, 
and West Virginia, that have no State protection or no State 
statute protecting species.
    Species like the polar bear would likely not have been 
listed, and then potentially declined even more significantly 
because the Federal Endangered Species Act is a national 
commitment. The polar bear is of importance to the United 
States, and so it allows the transcending or the blending of 
the State oversight responsibilities and management of endemic 
species within their borders to be balanced with the national 
commitment to preserving biodiversity within this country. So 
it is the blending of those responsibilities.
    So I imagine, worst case scenario, there could be a lot of 
political vetoing of species being added to the list because 
the camera lens of the Federal Endangered Species Act 
transcends State politics, and science guides those decisions, 
and science dictates what species are at the brink of 
extinction, and how they should be protected. That doesn't mean 
that the Federal Government should not be working very closely 
with the States and honoring and respecting State knowledge and 
State engagement, but this is a Federal law with a national 
oversight responsibility.
    Senator Barrasso. Senator Van Hollen, Senator, I hope you 
are driving to the vote, because they have just done the five 
bells for the ending part of the vote, and I hope somebody else 
is actually doing the driving.
    Senator Carper has not yet asked his questions in this 
round. Would you mind if I went to him at this point? Do you 
have any last question?
    Senator Van Hollen. No, I don't. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Van Hollen.
    Senator Carper.
    Senator Carper. I would say to Senator Van Hollen, pedal to 
the metal. Just kidding. Get on over here.
    I would say to our witnesses, welcome, and thank you for 
joining us today. Nice to see you.
    As I mentioned, this would be a question for Jamie 
Rappaport Clark. As I mentioned in my opening statement last 
week, the United Nations Convention of Biological Diversity 
released a report that highlights the severity of the global 
biodiversity crisis and specifically, reports suggest that 
addressing climate change is at the heart of stemming the 
biodiversity decline.
    My question would be, would you explain how recovery 
actions under the Endangered Species Act can help support 
species like those red knots we have been talking about, who 
are threatened or endangered due to climate change?
    Ms. Clark. Climate change is literally reshaping the 
biodiversity of this country, whether it is affecting habitat 
or shifting migratory patterns or causing species to adapt in 
ways that we never would have expected, possible, or required 
prior to watching the effects of climate, whether it is 
increased wildfires, drought, increased temperatures.
    The Endangered Species Act is aimed at recovering these 
species that are protected by its authorities, and it allows 
for the innovation of science and the partnership with 
stakeholders focused on, let's talk about the red knot, focused 
on the red knot's recovery using adaptive science, adaptive 
understanding [indiscernible] and allows for the decisionmakers 
and the folks that are involved in recovery of species like the 
red knot to adjust and address the impacts of changing climate, 
particularly along the coastlines, which is becoming 
increasingly significant.
    Without the protection and the overarching backstop of the 
Endangered Species Act, climate and other drivers like habitat 
loss, invasive species, and so on, would most certainly condemn 
species to extinction with no kind of check and balance in 
place.
    Senator Carper. Thank you. One last quick question, if I 
could. We have talked a good deal about funding today, and I am 
more confident than ever that adequately resourcing State and 
Federal agencies will dramatically improve Endangered Species 
Act implementation. However, legislative solutions that have 
been proposed in this Congress to provide wildlife funding seem 
to be focused predominantly on providing funding to States.
    As a former U.S. Fish and Wildlife Service Director, do you 
have concerns whether legislative funding strategy that heavily 
favors State funding, do you believe Congress should balance 
the funding needs of both States and Federal agencies?
    Go ahead, please, and I will ask you be fairly brief.
    Ms. Clark. Yes. Sorry, I dropped my mouse and couldn't 
unmute. I apologize.
    This is not an either-or, and we keep setting this up as an 
either-or. We know that funding to protect species on the brink 
of extinction is woefully inadequate, and it requires for all 
this energy pushed at States, which we would have to look at 
where the money goes and how it is tracked and given to State 
authorities.
    The Federal agencies are in dire straits themselves, so 
there has to be some balance. For all the investment in the 
States there has to be significant investment in the Federal 
agencies. That is beyond Fish and Wildlife Service and National 
Marine Fisheries Service.
    We have land management agencies like the Forest Service, 
the Bureau of Land Management, the National Wildlife Refuge 
System, that are managing and stewarding these lands for 
biodiversity conservation, and greater investments need to made 
there if we want to save and protect the species that occupy 
our country.
    Senator Carper. Thank you. Thank you for your responses.
    Ms. Priddy, sorry I didn't get to ask a question of you as 
well, but time just doesn't allow that.
    Mr. Chairman, it has been a good hearing. I ask unanimous 
consent to enter into the record letters and materials from 
stakeholders expressing concerns for the Endangered Species Act 
Amendments of 2020 and support for the Endangered Species Act. 
This includes letters from the National Wildlife Federation, 
Environmental Defense Fund, National Audubon Society, and 
National Parks Conservationist Association, as well as other 
national organizations, and I will also be including letters 
from the Delaware Ornithological, yes, our own Ornithological 
Society, Delaware Wildlands----
    Senator Barrasso. You mean the birdwatchers?
    Senator Carper. There you go.
    Senator Barrasso. OK.
    Senator Carper. Delaware Nature Society, Christian Council 
of Delmarva, Department of Natural Resources and Environmental 
Control Secretary Shawn Garvin, Delaware State Senator 
Stephanie Hansen, and the American Birding Association, which 
is headquartered in Delaware. Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    Senator Barrasso. At the same time, I would like to enter 
into the record, over 100 stakeholders have submitted letters 
in support of the Endangered Species Act Amendments of 2020. 
These includes letters from the Wyoming Game and Fish 
Department, Wyoming Stock Growers Association, Wyoming Farm 
Bureau Federation, and the Wyoming Association of Conservation 
Districts, other State wildlife agencies as well as local and 
national conservation, sportsmen, agriculture, and governmental 
interest have also written in support.
    I ask unanimous consent to enter these letters of support 
from stakeholders into the hearing record, and without 
objection, it is so done.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. I want to thank all of our witnesses for 
being part of the hearing today. The hearing record will remain 
open for 2 weeks.
    I want to thank the witnesses for their time, their 
testimony today.
    The hearing is adjourned.
    [Whereupon, at 11:59 a.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
